<html>
<title> - ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC CHALLENGES IN SOUTH ASIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
              ASSESSING U.S. FOREIGN POLICY PRIORITIES AND 
                  NEEDS AMIDST ECONOMIC CHALLENGES IN 
                               SOUTH ASIA 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2011

                               __________

                           Serial No. 112-26

                               __________

        Printed for the use of the Committee on Foreign Affairs

 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

65-627 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Assistant Secretary of State for 
  South and Central Asian Affairs, U.S. Department of State......     6
The Honorable Nisha Desai Biswal, Assistant Administrator for 
  Asia, U.S. Agency for International Development................    16
Mr. Daniel Feldman, Deputy Special Representative for Afghanistan 
  and Pakistan, U.S. Department of State.........................    24
Mr. Donald Sampler, Deputy Director, Office of Afghanistan and 
  Pakistan Affairs, U.S. Agency for International Development....    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert O. Blake: Prepared statement................     8
The Honorable Nisha Desai Biswal: Prepared statement.............    19
Mr. Daniel Feldman: Prepared statement...........................    27
Mr. Donald Sampler: Prepared statement...........................    34

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    64


  ASSESSING U.S. FOREIGN POLICY PRIORITIES AND NEEDS AMIDST ECONOMIC 
                        CHALLENGES IN SOUTH ASIA

                              ----------                              


                         TUESDAY, APRIL 5, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. I welcome all my colleagues to 
this hearing of the Subcommittee on the Middle East and South 
Asia. We will make opening statements, myself and the ranking 
member. Other members can make a 1-minute statement if they 
choose to do so.
    There was an unidentified package in the subway from the 
Capitol building to this building, and that is why other 
members aren't here yet, because they are making their way 
various routes to this committee or they are going elsewhere 
and won't come. One or the other, I am not sure. But I think 
that is why there aren't more members here yet. Or they are 
suspects, as the ranking member suggests.
    Anyway, this hearing was called with the intention of 
following up on Secretary of State Clinton's testimony at the 
full committee that we heard last month, but with an exclusive 
focus on South Asia. This will give members the opportunity to 
ask more specific questions both about the Fiscal Year 2012 
proposed budget as well as U.S. strategy throughout the region.
    South Asia continues to be the source of many of the most 
critical challenges to U.S. National security and will likely 
continue to be in the future. The most immediate challenge is 
the war in Afghanistan. At the NATO summit in Lisbon this past 
November, NATO members presented their plan to cease all combat 
operations in Afghanistan by 2014. The administration's 
strategy to meet this deadline relies on a vast number of 
complex variables, many of which are out of our control. At the 
center of this effort lies the mission to build the capacity of 
the Afghan National Security Forces.
    Although we have seen significant gains within the Afghan 
National Army, the capabilities of the Afghan National Police 
lag behind. I would like to call the subcommittee's attention 
to the tragic incident just yesterday in which two coalition 
soldiers were shot and killed by a man wearing an Afghan border 
policeman's uniform. While it is not yet clear whether this man 
was indeed a policeman or an insurgent masquerading as a 
policeman, incidents like this are, unfortunately, far too 
common. They raise significant concerns about how successful 
our efforts have been so far, how effective our screening 
process is, and whether our 2014 deadline is realistic. The 
most tragic outcome for this conflict would be to repeat the 
mistakes of the past by leaving Afghanistan before we have had 
the opportunity to solidify the gains that our troops have 
fought so hard for over the past decade.
    The administration's policy also emphasizes the importance 
of reconciliation with the Taliban, which is an extremely 
thorny issue. Setting aside the question of whether it is even 
possible to achieve reconciliation, we are talking about 
allowing to return to power the same extremist thugs who 
terrorized women and ruled according to a radical 
interpretation of Islam that disregards basic human rights.
    I hope the witnesses here today will elaborate on the 
administration's plans for the conduct of these negotiations as 
well as what exactly is considered negotiable. I hope they will 
also discuss how the administration is planning to balance the 
concerns that India and Pakistan may have surrounding both the 
negotiations process as well as how the Afghan Government that 
may emerge would affect the strategic balance of the region.
    Afghanistan, however, is not our only concern in South 
Asia. Years of Pakistani mistrust of the U.S. has resulted in a 
relationship in which cooperation on certain issues is often 
accompanied by obstruction on others. The Enhanced Partnership 
With Pakistan Act of 2009, also known as the Kerry-Lugar-Berman 
legislation, was intended to change this by authorizing up to 
$1.5 billion in civilian aid per year through 2014. Among other 
goals, the legislation is supposed to convey to Pakistan that 
the U.S. interest is in a strategic partnership and not just a 
transactional relationship.
    Although we have seen improved cooperation with certain 
elements of the Pakistani Government, the positive benefits of 
Kerry-Lugar-Berman have not yet spilled over into other arenas, 
such as security, in any meaningful way. The fact remains that 
Pakistani and U.S. strategic interests diverge on certain 
issues, especially those concerning Islamist terrorist groups 
like Lashkar-e-Taiba, which the Pakistani
    ISI continues to view as a strategic asset vis-a-vis India.
    How, then, does the administration plan to address these 
critical issues that continue to warp our entire policy in the 
region? I would hope that as a strategic partner Pakistan would 
not merely cooperate with us when it suits their immediate 
interests.
    Although I have focused almost exclusively on Afghanistan, 
Pakistan, and to some degree India, I hope some of our 
panelists will discuss our programs in the other countries of 
the region. But after all, I only have 5 minutes, so I have to 
keep mine relatively brief. You have all only get 5 minutes, 
too, unfortunately. Several examples include our programs to 
assist the Sri Lankans in their post-civil war reconciliation 
and our efforts to help the Nepalese Government continue its 
transition to democracy.
    Without any further delay, I would like to recognize my 
good friend from New York, the ranking member, Mr. Ackerman, 
for 5 minutes.
    Mr. Ackerman. Thank you very much, Mr. Chairman, and thank 
you for assembling this panel of superstars.
    Mr. Chairman, the heart of our security dilemma in South 
Asia lies in a region that covers the northwest of Pakistan and 
the southeast of Afghanistan. Whatever the lines on the map may 
indicate, this cross-border area is where the focus of our 
concerns should lie. Here is where al-Qaeda has sought cover; 
here is where the Afghan Taliban is sustained; here is where 
the Pakistani Taliban is strongest. Here is where the Afghan 
warlords make their deals. Here is where the reach of the 
Pakistani state is weakest. Here is where the combination of 
cooperation and perfidy by the ISI is most stark. Here is where 
both the convergence and divergence between U.S., Pakistani, 
and Afghan interests are most clear.
    This region is the chokepoint for much of the war matriel 
going into Afghanistan, both ours and theirs. This is the 
region where violence, radical Islamism, is most concentrated 
and secure. This region is the chief operating area for our 
drones because it is the area most saturated with high value 
targets.
    Even though this broad scenario has been the same for 
years, we are always, always, always making progress, except we 
never seem to get anywhere. The number of attacks against our 
side continues to rise. The number of fighters on the other 
side never seems to drop. President Karzai is alleged to be a 
crook. President Zardari is alleged to be President Zardari. 
Pakistan is about to go broke or collapse or broke. 
Afghanistan's new government continues to plumb new depths in 
the practice of corruption.
    The border is open to us. The border is open to them. The 
ISI is cooperating with us. The ISI is cooperating with them. 
The Afghan National Security Forces are always being trained 
and always melting away.
    I know that our President in December 2010 announced, ``We 
are seeing significant progress,'' he said, ``against the core 
goal,'' and that al-Qaeda senior leadership are under more 
pressure and that, ``we are clearing more areas from the 
Taliban control and more Afghans are reclaiming their 
communities,'' he said. I know that he questioned that, ``The 
gains we have made are still fragile and reversible,'' said the 
President. I know that he affirmed the goal agreed to at the 
November 2010 Lisbon NATO summit to move toward what he said 
was a transition to full Afghan lead for security that will 
begin early next year--that is 2011--and will conclude in 2014, 
said the President.
    Mr. Chairman, I know all that, but I can't see anything 
changing. The money keeps getting spent and the wounded and the 
dead keep coming home. Maybe from Washington the progress can't 
be discerned amid all of the conflicting data and narratives. I 
hope, indeed, I pray, that things are going to be better than 
they are from here. But after 10 years of hearing the same 
sales pitch, I tend to doubt it.
    I doubt that our money is buying anything that is deep or 
durable. I doubt that these new trained security forces are 
going to take the lead in weeks, much less years. I doubt the 
leaders in the Afghan Government and the Pakistani Government 
are going to do anything except pursue their own narrow, venal, 
self-interest. I doubt the ISI will ever stop working with us 
during the day and going to see their not-so-secret friends in 
the Lashkar-e-Taiba or Jaish-e-Mohammed, and other terrorist 
groups at night. Most of all, I doubt that we aren't being 
taken for suckers and that the massive expenditures and the 
terrible sacrifices of our troops will, in the end, be 
vindicated by anything that resembles success.
    A few words about India and other South Asian States. The 
brightest light in South Asia's constellation and the strategic 
center of gravity for the region is India, which has been on a 
sustained path toward economic and political empowerment. As 
the world's largest democracy, India is a natural partner for 
the United States. And I am delighted by the way that our 
relations have blossomed ever since the Clinton administration.
    My complaint here, however, is much the same as it has been 
for some time. Our relations with India are still too narrow 
and still too shallow. Some of the responsibility is ours, some 
is theirs. On the economic side, there is too much opportunity 
being lost to outdated rules, regulations and laws limiting the 
attractiveness of accessibility of India as a destination for 
business and investment. On the defense and security side, 
things are going well between our two defense establishments, 
and I have hope high hopes that he will go much further still. 
America makes the best defensive equipment in the world and 
India's security requirements are very, very real.
    And here, the United States has failed India in that we 
have not used our diplomatic leadership and agenda for setting 
capability to focus global attention to the threat to India 
from Pakistan-based terrorists such as Lashkar-e-Taiba, that 
continue to raise money from all over the world. If there is, 
God forbid, another Mumbai-like strike, we will not be able to 
say that we did our utmost to prevent it, because in truth we 
haven't.
    The ambitions of these terrorists have only grown and a 
full-fledged global campaign to crush these thugs still awaits, 
at our peril. The governments in Sri Lanka, Nepal, Bhutan, 
Bangladesh are in varying degrees transitional, and all face 
tough challenges in knitting together the social fabric of 
their nations. Some have faced revolutions, others civil war or 
conflict. Each faces the difficult task of providing a 
government that serves all of its people, that is bound by the 
law, and that is answerable ultimately to their publics.
    American aid to these national efforts serves our national 
interest and reflects the values that we hold most dear. 
Partnership with these nations as well as our friends in the 
Maldives serves our national interest for very little relative 
cost and should be sustained even in these very difficult 
economic times.
    You have described an agenda wherein a lot of ground has to 
be covered, Mr. Chairman, and I look forward to hearing from 
distinguished witnesses.
    Mr. Chabot. Thank you very much, Mr. Ackerman. Are there 
any other members of the committee who would like to make a 1-
minute opening statement? We will proceed with the 
introductions of our distinguished panel here this morning.
    First, we have Ambassador Robert Blake, who was appointed 
Assistant Secretary of South and Central Asian Affairs in May 
2009. He previously served as Ambassador to Sri Lanka and 
Maldives, and as Deputy Chief of Mission at the U.S. mission in 
New Delhi. He has also held a number of positions at the State 
Department in Washington, including Senior Desk Officer for 
Turkey; Deputy Executive Secretary and Executive Assistant to 
the Under Secretary for Political Affairs. We welcome you here, 
Ambassador.
    Next, we have Nisha Desai Biswal, who currently serves as 
USAID's Assistant Administrator for Asia. Prior to her 
appointment, she served as the majority clerk for the State 
Department and Foreign Operations Subcommittee on the House 
Committee on Appropriations. She also previously served on the 
professional staff of the House International Relations 
Committee, where she was responsible for South and Central Asia 
policy as well as oversight of the State Department and USAID. 
We welcome you here, Ms. Biswal.
    Next, we have Dan Feldman, who is one of the three deputies 
to the Special Representative for Afghanistan and Pakistan. His 
previous government experience includes serving as Director of 
Multilateral and Humanitarian Affairs at the National Security 
Council in the Clinton administration, where he was responsible 
for global human rights issues, and as counsel and 
communications adviser to the U.S. Senate Homeland Security and 
Governmental Affairs Committee. Thank you for being here Mr. 
Feldman.
    Finally, last but not least is Larry Sampler, who is 
currently the Principal Deputy Assistant to the Administrator 
and Deputy Director of the Office of Afghanistan and Pakistan 
Affairs at USAID. Prior to this, he served as the Deputy 
Coordinator for Reconstruction and Stabilization at the 
Department of State and as the Chief of Staff for the United 
Nations Assistance Mission in Afghanistan. Mr. Sampler has also 
served in the Special Operations community of the U.S. Army, 
and we thank him for his service to our country. For 15 years I 
believe, Mr. Sampler, is that correct?
    Mr. Sampler. That is right.
    Mr. Chabot. Thank you for your service, and thank you for 
all your services here in the different capacities.
    Gerry, would you want to make a 1-minute statement? You are 
welcome to do so.
    Mr. Connolly. Mr. Chairman, I thank you very much. I am 
very interested in the testimony today. I do have a prepared 
statement. Without objection, I would ask it be inserted in the 
record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Connolly. Let me just say, an issue, Mr. Chairman, that 
I think we on a bipartisan basis need to follow, and that is 
the whole CERP program, the Commanders' Emergency Response 
Program. It has grown enormously. It falls through the cracks. 
The intentions are all goods, but the amounts are not so big. 
It would make it one of the largest bilateral aid programs in 
the world, and we need to get our arms around it in terms of 
making sure it is efficacious and making sure that we have full 
auditing trails of such large amounts of money. So I am 
interested in hearing our witnesses talk about that today, too.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much. We will remind the panel, 
as you probably know, we operate under the 5-minute rule, both 
for members up here and the panelists. As I say, we have a very 
distinguished panel here this afternoon. There should be a 
lighting system which should be functioning there to let you 
know how much of the 5 minutes are being used. A yellow light 
will come on when you have 1 minute to wrap up. The red light 
will come in, and you are supposed to stop then. If you didn't 
cooperate too much, I have tap the little gavel. And at some 
point I will bang it pretty loudly.
    Your testimony in full, of course, will be taken for 
record, and we will get into things in questions as well.
    Mr. Ambassador, you are our first witness. So we appreciate 
you being here. You have 5 minutes.

STATEMENT OF THE HONORABLE ROBERT O. BLAKE, ASSISTANT SECRETARY 
 OF STATE FOR SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Blake. Thank you, Mr. Chairman and Mr. Ackerman, 
members of the committee. I am very pleased to be here today to 
speak with you about U.S. foreign policy priorities and needs 
in South Asia. I have submitted testimony about the countries 
under my purview, and I would just briefly summarize it now.
    Mr. Chairman, South Asia holds more than 1.4 billion 
people, nearly a quarter of the world's population, and yet 
only 2.5 percent of the world's GDP. More than 50 percent of 
South Asians are under 25 and nearly three-quarters of them 
live on less than $2 a day. This burgeoning, multi-ethnic 
region, anchored by the growing prosperity and global reach of 
India, plays an instrumental role in world affairs, 
international commerce, and global peace and security. Since 
2008, democratically elected leaders govern all South Asian 
countries, an indication that India's democracy has served as a 
useful model in the region.
    The United States and India enjoy a truly global strategic 
partnership now, thanks to President Obama's recent visit in 
November 2010. India's 8 percent growth rate makes it the world 
second fastest growing major economy today. During the 
President's visit he announced trade deals that exceeded $14.9 
billion in total value, with $9.5 billion in U.S. export 
content, supporting almost 54,000 jobs.
    India is also among the fastest growing sources of 
investment into the United States. In the last decade, 
investment capital coming from India to the United States grew 
at an annualized rate of 53 percent, reaching $4.4 billion in 
2009.
    The strategic partnership with India will remain among our 
top foreign policy priorities. As the President told the Indian 
Parliament last year, with India assuming its rightful place in 
the world, we have an historic opportunity to make this 
relationship between our countries a defining partnership for 
the century ahead.
    I would like to take note of the recent resumption of talks 
between India and Pakistan and the demonstration of goodwill by 
both sides. Both countries made important strides during Home 
Secretary talks last week by agreeing to set up a hotline 
between their two governments to share information about the 
threats of terrorism and to share and facilitate the work of 
commissions investigating terrorist attacks.
    Turning to Bangladesh, it is a democratic and moderate 
Muslim country of 160 million people with a rapidly growing 
economy. It is a country with which the United States has a 
strong interest in maintaining close relations. Since Prime 
Minister Hasina was elected in December 2008, Bangladesh has 
denied space to terrorist, captured several key leaders of 
violent insurgent groups, and prioritized improving relations 
with India.
    When I went to Bangladesh 2 weeks ago, Mr. Chairman, I 
pressed the government to protect the integrity of civil 
society and the autonomy of Grameen Bank. I warned that a 
failure to find a compromise that respects Dr. Yunus' global 
stature and maintains the integrity and effectiveness necessary 
of Grameen could affect our bilateral relations.
    Off the coast of southern India lies Sri Lanka, still 
recovering from its 26-year conflict with the LTTE. Positioned 
directly on the shipping routes that carry petroleum products 
and other trade from the Gulf to East Asia, Sri Lanka remains a 
strategic interest to the United States. An important 
contributor to the global peacekeeping operation, it is poised 
to be a capable and willing partner to effectively combat 
violent extremist, trafficking, and piracy. But the 
government's worrying record on human rights, its weakening of 
democratic institutions and practices, and the way in which it 
conducted the final months of its conflict against the Tamil 
Tigers, hamper our ability to fully engage. We continue to 
stress the important of reconciliation and accountability for 
the future stability and prosperity of that country.
    Nepal is one of the poorest countries in Asia, but it 
continues its dramatic transformation from a caste-bound 
constitutional monarchy racked by a bloody Maoist insurgency to 
a Federal republic that represents and includes all minorities 
and ethnicities. Although numerous challenges remain, overall 
trends are positive. When Nepal's leadership demonstrates its 
readiness to move forward on the final elements of the peace 
process, we stand ready to provide limited supports for some 
aspects of that.
    Mr. Chairman, in conclusion, South Asia is one of the most 
vital regions of the world for the United States, and its 
importance will only grow. The recent histories of Bangladesh, 
Sri Lanka, Nepal, Bhutan, and Maldives show they are joining 
India in consolidating democracy and contributing to the peace 
and security of the larger world. They may seem small, but they 
understand the need to think big and the importance of working 
with us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Blake follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    Mr. Chabot. Thank you very much, Mr. Ambassador. Your 
timing was impeccable.
    Ms. Biswal, you are recognized for 5 minutes.

   STATEMENT OF THE HONORABLE NISHA DESAI BISWAL, ASSISTANT 
     ADMINISTRATOR FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Biswal. Thank you, Mr. Chairman. Chairman Chabot, 
Ranking Member Ackerman, and members of the committee, thank 
you very much for the invitation to testify today on behalf of 
President Obama's Fiscal Year 2012 budget for USAID programs in 
South Asia. It is a particular honor for me to appear before 
this committee after having served here as professional staff, 
and I am also very pleased to be here with my colleagues, Bob 
Blake, Dan Feldman, and Larry Sampler.
    Mr. Chairman, USAID's development programs in Bangladesh, 
India, Nepal, and Sri Lanka are addressing critical development 
challenges and advancing critical American interests. With 
nearly one-fourth of the global population, a third of which 
still lives in poverty, South Asia continues to experience 
significant development challenges. At the same time it is a 
region of strong economic growth and impressive progress. The 
American people can take pride in the role that the United 
States has played in this progress, whether it be the Green 
Revolution of the sixties and seventies, which saved millions 
of lives by increasing agricultural productivity, or the 
strides that we are making today on reducing infant and 
maternal deaths and improving other health outcomes.
    Our investments in South Asia have also benefited the 
American people. For example, in the last decade, U.S. Exports 
to India have quadrupled and Indian investment in the United 
States has grown significantly. In fact, globally U.S. exports 
to developing countries overall has grown six times faster than 
our exports to major economies.
    USAID Administrator Rajiv Shah has talked about the need 
for the United States to reach out to the 2-3 billion people 
who are currently at the bottom of the economic pyramid who 
have the potential to rise to the middle class. A large portion 
of the bottom billion reside in South Asia. By establishing 
links to them today with these future consumers, we can 
effectively position American companies for marketing to them 
in the future.
    To improve our own efficiency, USAID is reforming the way 
that we do business, streamlining our procurement processes, 
broadening our partner base, employing the strategic use of 
science and technology to create more innovative solutions and 
strengthening our evaluation capability to better assess when 
the programs are working and when they should be replicated.
    USAID missions in South Asia are applying these lessons to 
focus our resources in this very densely populated region of 
profound poverty, chronic food insecurity, and environmental 
vulnerability.
    Across the region, USAID devotes about 50 percent of our 
2012 request toward improving health outcomes. Nepal, India, 
and Bangladesh are all USAID focus countries for the Global 
Health Initiative. Our investments in the health sector in 
South Asia have been highly effective, resulting in improved 
maternal and child health, slowed rates of population growth, 
and virtually eradicating polio and other childhood disease. In 
the past two decades, India has reduced its infant mortality by 
27 percent, Nepal by 39 percent, and Bangladesh by 37 percent.
    About 20 percent of the request is for improving food 
security and agriculture in South Asia. Despite the advances of 
the Green Revolution, the region has once again become food 
insecure. So in Bangladesh our programs focus on improving 
production outputs of rice, maize, and fisheries, and 
supporting research for saline-resistant rice that can grow in 
the country's flood plains, which are becoming increasingly 
more saline.
    In Nepal, the program targets the southern Terai, the 
breadbasket region of Nepal, which has stalled agricultural 
productivity because of the violent conflict of recent years.
    In India, the U.S. has embarked on a strategic partnership 
with the Government of India to harness the capabilities of 
both the United States and India in addressing poverty and 
hunger in India, as well as tackling these challenges globally. 
President Obama and Prime Minister Singh announced the 
Partnership for an Evergreen Revolution in November during that 
historic visit.
    Mr. Chairman, South Asia also faces strong and unique 
environmental vulnerabilities that challenge its growth. 
Changing water supply caused by shifting glaciers and monsoon 
patterns threaten economic growth, health, and security. So we 
are working with scientific communities, other U.S. Government 
agencies, and private sector, to help communities manage these 
dwindling resources and to address the consequences on health 
and social issues.
    We are also focusing on disaster risk reduction. Because 
the region is so prone to cyclones, monsoon floods, and 
earthquakes, as we saw this week the minor earthquake in 
northern India, we are launching an effort to mainstream 
disaster risk reduction into our development programs, working 
with other donors, including the World Bank, so that we can 
minimize the impact of disasters in this region.
    Finally, because we know that strengthening weak governance 
and improving transparency and accountability is critical to 
everything that we do, we are building these good governance 
programs into every sector of work that we do in South Asia, 
including expanding the democratic space in post-conflict 
transitions in Sri Lanka and Nepal, strengthening weak 
institutions in Bangladesh, and tackling corruption throughout 
the region.
    Mr. Chairman, thank you very much for the opportunity to 
testify. I look forward to any questions you may have.
    [The prepared statement of Ms. Biswal follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chabot. Thank you very much. We appreciate your 
testimony.
    Mr. Feldman, you are recognized for 5 minutes.

STATEMENT OF MR. DANIEL FELDMAN, DEPUTY SPECIAL REPRESENTATIVE 
     FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE

    Mr. Feldman. Chairman Chabot, Ranking Member Ackerman, 
members of the committee, thank you for inviting me here today 
to discuss U.S. policy in Afghanistan and Pakistan. I have 
submitted my written remarks for the record and will briefly 
highlight some key points.
    The President's Fiscal Year 2012 budget outlines the 
resources required to build on hard-won security and civilian 
gains that we have achieved through the sacrifice of our 
military and civilian personnel serving in Afghanistan and 
Pakistan. Today, I want to briefly frame the way forward and 
explain how we intend to utilize the resources the President 
requested to reinforce the progress of the military and 
civilian surges while also launching a political process aimed 
at splitting the Taliban from al-Qaeda. This diplomatic surge, 
as Secretary Clinton outlined in her recent speech, would bring 
the Afghan conflict to an end, further our core goal of 
disrupting, dismantling, and defeating al-Qaeda, and help to 
stabilize the region.
    First, Afghanistan, where alongside our military more than 
1,100 civilians are working to bolster the Afghan Government 
and lay a foundation for sustainable economic growth that will 
undercut the insurgency. Assisting us is a broad international 
coalition--46 nations, one-third of them Muslim majority, form 
the international contact group which met recently in Jedda, 
Saudi Arabia, hosted by the Organization of the Islamic 
Conference.
    We are at the high water mark of the military effort, and 
as President Karzai announced on March 22, we are preparing to 
transition provinces and districts to an Afghan lead that 
encompass roughly 25 percent of Afghanistan's population. This 
will advance the transition plan agreed to at the Lisbon summit 
in November and which President Obama reaffirmed in his 
December policy review. We look forward to combat troop 
reductions starting in July, and continuing, based on 
conditions on the ground, with transition to Afghanistan 
security being completed by 2014. As we have long said, the 
Afghans must take responsibility for their own future.
    With our allies and partners, the United States will 
realign our civilian and military resources in these provinces 
to support the Afghan Government's increasing responsibility 
for security and the delivery of other essential services to 
its citizens. Our civilians will continue to support the 
stabilization mission, but will also focus increasingly on 
developing the capacity of critical Afghan Government 
institutions.
    As General Petraeus testified, retreating from our surge in 
Afghanistan with our troops still in the field and the handoff 
to Afghanistan security will be just getting underway would be 
a grave mistake. During transition, State, USAID, and our 
civilians from eight other agencies will shoulder increased 
responsibilities. Without a fully resourced State and USAID 
role in Afghanistan, hard-earned progress by our troops and 
civilians will be put at risk.
    Equally important is our civilian assistance to Pakistan, a 
nuclear-armed nation with deep ties and strong interests in 
Afghanistan. We are broadening our partnership and focusing on 
shared threats as well as addressing Pakistan's political and 
economic challenges. Since 2009, we have worked with the 
Pakistani Government and the Pakistani people, including 
through our enhanced strategic dialogue process, which met last 
year three times at the ministerial level. This has helped 
better focus assistance on Pakistan's urgent energy and 
economic needs and coordinate our efforts against violent 
extremist organizations.
    Even as we have had serious challenges to our relationship, 
some of which have made headlines, we have continued civilian 
and military efforts throughout the country and even expanded 
our cooperation. Challenges must still be overcome in our 
relationship with Pakistan as distrust lingers on both sides. 
And as recent events underscore, we need to work together 
carefully to prevent misunderstandings and disagreements from 
derailing progress. But it is critical that we remain engaged 
in Pakistan and help its democratically elected leaders as they 
work to address the myriad of domestic challenges they face, 
whether on religious freedoms or economic policy.
    We believe that the gains of the past 2 years on both sides 
of the border have created space for an Afghan-led 
reconciliation effort settlement aimed at achieving a political 
settlement of the conflict that will isolate al-Qaeda and 
enhance regional stability. The U.S. supports this Afghan 
effort. Over the last 2 years we have laid out our unambiguous 
redlines for reconciliation with the insurgents. They must 
renounce violence, they must abandon their alliance with al-
Qaeda, and they must abide by the Constitution of Afghanistan, 
including its protections for the rights of women and 
minorities. Those are necessary outcomes of any negotiation. 
Insurgents now face a clear choice--disown al-Qaeda and enter 
into a political process under Afghanistan's Constitution, or 
continue to face military pressure.
    All of Afghanistan's neighbors, including Pakistan, have 
legitimate concerns that should be understood and addressed by 
the Afghan Government in any reconciliation process with steps 
that provide transparency and reassurance. They also have 
responsibilities, including respecting Afghan sovereignty, 
which means agreeing not to play out their rivalries within its 
borders and working with Kabul to improve regional stability.
    We are encouraged by a resumption of dialogue between 
Pakistan and India and the positive steps taken by Prime 
Ministers Singh and Gilani last week as a part of cricket 
diplomacy. We look to them and all of Afghanistan's neighbors 
to help ensure that al-Qaeda and the syndicate of terrorism is 
denied safe haven everywhere.
    Let me conclude by reiterating that the President's Fiscal 
Year 2012 budget request for Afghanistan and Pakistan is 
critical to the success of our military efforts. The success of 
counterinsurgency is based largely on the ability of civilian 
institutions and law enforcement governance and development to 
replace military forces as soon as security is restored. While 
tackling corruption is a challenge, we are working with our 
Afghan and Pakistani partners to ensure that U.S. tax dollars 
are utilized effectively and efficiently.
    Enduring partnerships with Afghanistan and Pakistan are 
vital to U.S. national interests and stability in South and 
Central Asia. There have been points in our history when we 
have disengaged from Pakistan and Afghanistan, with disastrous 
results. We cannot afford to make that mistake again.
    Thank you for your time, and I look forward to answering 
questions.
    [The prepared statement of Mr. Feldman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    Mr. Chabot. Thank you. Mr. Sampler, you are recognized for 
5 minutes.

  STATEMENT OF MR. DONALD SAMPLER, DEPUTY DIRECTOR, OFFICE OF 
AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Sampler. It is a pleasure to be here today to talk 
about the Afghanistan and Pakistan portion of the Fiscal Year 
2012 budget request and how it contributes to U.S. national 
security interests in the whole of South Asia. My full written 
statement has been entered into the hearing record, and for 
purposes of opening remarks I would like to just highlight a 
few key points from that statement.
    With respect to national security, U.S. foreign assistance 
is an inseparable part of U.S. And global security. As 
Secretary Gates, Admiral Mullen, and General Petraeus have all 
emphasized to the Congress, we need a fully engaged and fully 
funded national security presence, to include the core 
components of our Nation's civilian power, the State Department 
and USAID.
    In the most dangerous areas of Afghanistan and Pakistan 
today, USAID works side by side with our military and civilian 
colleagues, participating in the shape, clear, hold, build, and 
transfer efforts, administering development projects, playing a 
critical role in stabilizing districts, building responsive 
local governance, improving the lives of ordinary citizens, and 
ultimately helping to prepare the way for American troops to 
return home.
    With respect to oversight and accountability, we must be 
good stewards of the taxpayers' dollars. We understand this. 
Central to all of our efforts in Afghanistan and Pakistan is an 
understanding of the critical importance of oversight and 
accountability. These are areas on which USAID's leadership has 
focused intensely as they represent key parts of our agency's 
reform agenda and our team's approach in both countries. I will 
be happy to discuss this if asked.
    With respect to sustainability, one element of the value 
that USAID adds to the whole-of-government approach is our 
expertise at integrating the urgent and immediate needs of 
stabilization work with the important and lasting benefits of 
more traditional assistance. In Afghanistan, guided by the 
Afghanistan-Pakistan Review conducted last December, USAID'S 
2012 budget request supports two priorities of national 
security in Afghanistan--attaining stabilization goals and 
establishing the basic conditions that make investments 
sustainable. Towards the first, our focus will be to focus and 
establish the conditions that will support stability through 
programs that generate employment, resolve disputes, involve 
the population and their local governance, and provide services 
in key population centers.
    Toward the second priority, our focus will be on 
foundational investments that help maintain stability while 
enabling growth and sustaining legitimate governance. 
Highlights of these investments include the strategic 
reprioritization of resources in the energy sector; continued 
support in the areas of gender, education, and health; and 
increasing the capacity of public and private institutions to 
generate revenues, generate economic growth, and sustained 
development efforts.
    In Pakistan, U.S. civilian assistance is critical to 
maintaining and deepening a long-term strategic partnership 
that the United States is forging with the people and the 
Government of Pakistan. Our budget request for fiscal 2012 
reflects a sustained commitment to cooperation based on mutual 
goals and values, which include building a more secure, 
prosperous, and democratic Pakistan. In support of this 
commitment we will focus U.S. efforts and resources on the 
following four priority sectors: Energy; economic growth, 
focusing on agriculture; stabilization; and the social sector, 
specifically education and health.
    In conclusion, we recognize fully the challenges we face in 
Afghanistan and Pakistan. Problems of limited capacity, 
corruption, narco activities and their corrosive effect on 
government all exist. For our part, there are issues related to 
limited resources, the pending military drawdown, contracting 
oversight, and the placement and protection of our civilian 
staff in the field. But these are calls to exercise care and 
due diligence and to explore ways to do better with fewer 
resources. These are not reasons to abandon our vital national 
security interest nor the hard work and sacrifices made thus 
far.
    Finally, in closing, I know that some of the committee are 
military veterans, and I thank you also for your service. But I 
also would like to recognize and thank the hundreds of 
civilians who are serving or have served in frontline countries 
on the other side of the world as part of our whole-of-
government approach to national security. Many of them lived 
and worked side by side with fellow Americans in the military, 
sharing the same hardships, the same separations from loved 
ones, and the same risks. These young men and women, all of 
them, whether they are in uniform or not, deserve the best that 
our Government and our agency can do to support them as they do 
their job, which is to represent the very best of America to 
the rest of the world.
    I am truly honored to be here today, and look forward to 
answering your questions. Thank you.
    [The prepared statement of Mr. Sampler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chabot. Thank you very much, Mr. Sampler. We want to 
thank all the witnesses who have testified here this afternoon. 
Now the members here have 5 minutes to ask questions. I will 
begin with myself.
    Mr. Feldman and Mr. Sampler, the latest quarterly report 
for the three inspector general offices charged with monitoring 
U.S. nonmilitary aid programs in Pakistan set off a flurry of 
media coverage, all focusing on the stark assessment of the 
progress of the Pakistan program: ``One year after the launch 
of the civilian assistance strategy in Pakistan, USAID has not 
been able to demonstrate measurable progress.''
    While many of us appreciate the challenges of implementing 
a substantial assistance package in the Pakistani environment, 
it remains unclear what the $6 billion in civilian development 
and humanitarian aid over the last decade has done to overcome 
anti-American sentiment there. Additionally, the Kerry-Lugar-
Berman legislation was to achieve this very objective. It was 
supposed to demonstrate to Islamabad that the U.S. wished to 
move beyond the transactional relationship that had fomented so 
much distrust.
    As you state in your testimony, Mr. Feldman, $1.5 billion 
has already been distributed. We are now discussing the budget 
for year 3 of this 5-year program and we have seen little, if 
any, progress on some of the most significant security issues. 
A couple of questions relative to that. What is your assessment 
of the success or lack thereof of our civilian and security 
assistance to date?
    Secondly, more broadly, what are the trends in the 
relationship? Do you see evidence of any increasingly shared 
strategic outlook or, absent that, at least an improved ability 
to manage our strategic differences in Afghanistan and 
elsewhere.
    Thirdly, alternatively, does the Davis case and other 
controversies point to growing bilateral tensions and 
increasing strategic divergence? Our efforts to date have 
focused overwhelmingly on highly visible projects like 
infrastructure assistance at the expense of democracy and 
governance programs. Why have these so-called high visible 
programs not led to warmer relations or improved public opinion 
concerning the U.S.?
    Finally, why did legislative strengthening programs like 
the Provincial Assembly Program in Peshawar not get extended, 
and what specifically is SRAP doing to help facilitate the 
growth of political parties in Pakistan?
    I know that is a lot to answer, but I have only got 5 
minutes and if I ask them individually, I won't get to the 
third or fourth tier questions. So I will shut up and start 
listening.
    Mr. Feldman. Thank you, Mr. Chairman. The relationship, as 
I tried to be very honest about in the opening statement, is a 
complex one. And I don't mean to sugarcoat it. Obviously, we 
have gone through a difficult time recently. But it is against 
the backdrop of real strides, very significant strides, in the 
overall bilateral relationship over the course of the last 2 
years.
    U.S. security assistance builds Pakistani capability and 
increases its willingness to engage in difficult fights. Last 
year, for the first time, Pakistan conducted major combat 
operations in five of the seven tribal areas, tribal agencies, 
at significant cost and sacrifice, as well as since 2009, in 
Malakand, which includes Swat Valley. We rely on the Pakistan 
security institutions to prioritize counterinsurgency, to move 
to eliminate save havens, to cooperate with us in deleting al-
Qaeda and the Taliban.
    I would say as the broadest frame a difficult partnership 
with Pakistan is far better than a hostile Pakistan and is 
vital to U.S. national security interests. If we were to have 
economic or political collapse in Pakistan, it would threaten 
our most critical national security interests.
    In terms of our civilian assistance programs, I will defer 
in part to my colleague from USAID. But we have made great 
strides since Kerry-Lugar-Berman legislation was passed just 18 
months ago or so. As I noted, $1.5 billion has been spent since 
then. The GAO reports focus on the amount from Fiscal Year 2010 
funding, the first year of Kerry-Lugar-Berman, so it looks like 
a smaller amount than has actually be spent altogether. And 
$500 million of that $1.5 million was for flood relief and 
recovery efforts, and we are now moving into more flood 
reconstruction.
    Many of those projects are given--the lead time to start 
many of these projects are just now getting underway. I think 
we will see much more significant expenditures in the months 
ahead. As Larry laid out, we have sought to focus and 
prioritize those projects in those four key sectors that are of 
most core national security interest not only to the Pakistanis 
but also to us. That is helping to ensure that there is energy 
and electricity, to help create jobs, there is a counter to 
extremism, and helping to promote education and health 
opportunities.
    Mr. Chabot. Thank you. My time has expired. So, Mr. 
Sampler, I will however let you respond however you would like 
to in a second round or maybe I can get the answers in writing 
or some point. The question is basically we spend all this 
money and they still hate us. What should we do about that. But 
I will let you get to it later.
    I think, Mr. Ackerman, you are next for 5 minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. Since 2001, the 
amount of assistance, military and otherwise, that we have 
provided to Pakistan is pushing close, I think, to $20 billion. 
That is a bunch of money. By anybody's reading of how popular 
the United States is in Pakistan, the numbers hardly measure on 
any type of meter. Our popularity could not be too much worse. 
For a country that is completely victimized by terrorists, with 
us being just about the sole--not quite the sole, but 
numerically pretty much there--protector of the people against 
the terrorists, at least in our efforts to do that, and the 
astonishing contrast to how we are regarded there gives one 
pause to say: What are we doing, how effective are we in 
getting our message across.
    Of course, we do this in large measure for our own reasons, 
our own security reasons, besides the humanitarian reasons. But 
why hasn't all of this help and assistance demonstrated in a 
measurable way to the people of Pakistan that we are not the 
enemy?
    Any volunteers? So if we gave another $20 billion, I guess, 
would they like us in the morning as we loved them $20 billion 
another night?
    Mr. Sampler. Ranking Member, thank you for the question.
    Mr. Ackerman. You don't mean that.
    Mr. Sampler. With respect to the amounts of money and the 
return on investment in terms of popularity, it is at the 
moment in time not possible to make a direct correlation 
between amounts given and popularity.
    Mr. Ackerman. I know you can't buy love, but a little like.
    Mr. Sampler. I draw attention to surveys done after the 
earthquake and the flood relief. Those were opportunities where 
popular opinion in Pakistan were dramatically affected and 
pretty directly affected by the immediacy of the results and 
the immediacy of the relief that was provided. The continued 
assistance is in support of the strategic campaign we have with 
Pakistan to develop this partnership over time. I believe 
Secretary Clinton mentioned in her remarks at one point that 
there is now a communication strategy for how we take better 
advantage of the money that we are spending. Ambassador Munter 
is adamant that we brand the work we do in Pakistan as from the 
American people.
    So there are steps being taken to make sure that we do get 
value for the investment where we can, but it would be 
inaccurate to state that the primary reason for the investment 
is for a momentary blip in popularity. We are in Pakistan and 
we are in a partnership with Pakistan for the long haul, and 
our investment is evidence of that.
    Mr. Ackerman. Let me ask a different question, different 
subject. Help me play chess, which means we are going to do 
three moves at least instead of the usual what move is next. 
India suffered a huge catastrophe in Bhopal, a chemical spill. 
If you take a look at what is happening in Japan, it is 
absolutely frightening. We have helped in India with our 123 
nuclear agreement to provide for nuclear energy. One of the 
thoughts in doing that was so that they are less reliant on the 
possibility of doing business with Iran and buying crude from 
Iran. If India decides to be as cautious as most countries are 
and slows down their nuclear and civilian energy projects, how 
likely is it that Iran will be higher on their radar for 
supplying the energy that they so voraciously need to consume?
    Ambassador Blake, people are pointing to you.
    Mr. Blake. Mr. Ranking Member, first of all, on the 
Japanese situation, I think it is really too early to say what 
effect Japan is going to have on India's nuclear program. I 
think India does remain very much committed to carrying out its 
nuclear program because it has such huge energy needs that are 
going to be needed for its growing economy and its growing 
population. So we continue to work very closely with our Indian 
friends to carry out the civil nuclear deal. I think they 
remain committed to it. We haven't received any indications of 
that.
    In terms of India's continued reliance on Iran for oil and 
gas, India presently imports about 15 percent of its oil from 
Iran, and I think that actually our sanctions and the 
international sanctions have had some impact because Indian 
companies, big companies like Reliance, increasingly are 
reading the tea leaves and understand that they have to make a 
choice, they have to make a strategic choice between trading 
with Iran and trading with the United States and the broader 
world. Increasingly, they are moving toward us. I think that is 
a very, very positive signs. It also puts pressure on the 
Iranians. So I actually think that the trends are good in this 
respect.
    Mr. Chabot. The gentleman's time has expired. Kind of the 
same question I think the ranking member and I are asking 
relative to Pakistan. I remember seeing a political cartoon 
some years ago, it has probably been 10 now, in which there was 
a Middle Eastern man who was looking, smiling at a bag that had 
been provided to them for an aid of some sort and had a flag on 
there, and it said, Food. The caption under there was: Those 
Americans are so thoughtful, food and a flag to burn.
    It sort of, unfortunately, went to what many of us feel 
about our aid, how frustrating it is that the American taxpayer 
puts out so much money and unfortunately we are still despised 
in many places around the world, despite what the United States 
does and the American taxpayer.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I guess 
it comes down to fundamental approaches, and frankly, we have 
to admit and should admit that the fundamental approach that we 
have been taking to establishing stability and friendships in 
these parts of the worlds has failed. Failed. It is a failure. 
We are now in a situation where there is more turmoil and more 
anti-American hatred than before. Perhaps one of the 
fundamentals we are talking about is the idea that we can in 
some way build other people's nations for them.
    I would agree with Mr. Sampler that when he just mentioned 
emergency and crisis assistance brings us good will. When 
people are most desperate and most vulnerable and we help with 
a helping hand and we help people with medicines and food and 
water at a time when their families are being threatened, we 
can win their friendship. And that should be, Mr. Chairman, the 
focus of America's efforts. The money that we are spending for 
nation building has been a waste. It has not built the ties 
that we thought it would build.
    So as we go to cut our budgets and try to find the most 
effective way of spending our limited dollars overseas, Mr. 
Chairman, I would suggest that, from what I am hearing today 
and what I have been looking at over the last few years, that 
we need to change the fundamental of going from nation building 
uber alles to perhaps crisis and emergency assistance and being 
there when they need us.
    I don't believe that any amount of nation building can 
change the fundamentals of another society unless of course we 
want to occupy that society for decades and decades and 
decades, which I don't believe Americans want to do that 
anywhere, especially Afghanistan.
    I appreciate Mr. Feldman's optimism. His testimony has been 
very optimistic about Afghanistan. Let me just suggest that it 
runs contrary to everything the rest of us are seeing in 
Afghanistan. It is not becoming more stable. We have a 
situation now where the disruption of radical Islam now that we 
had driven out after 9/11, after the Northern Alliance drove 
the Taliban out of their country, with our help, the situation 
is actually a lot worse in terms of American security today.
    I would suggest that perhaps this amount of spending--well, 
let me ask you this just straight out, Mr. Feldman. Can 
assistance basically succeed? Can our spending and our 
development projects succeed if the government structure that 
we have foisted upon the Afghanistan people is contrary to 
their basic culture? This is a culture of the most diversified 
and I would say the most bottoms-up culture in the world. This 
is a village culture. Eighty percent of the people live in 
villages. They believe in the tribal chief and the tribal 
alignments. Can we change that? Can we force them to accept the 
central government?
    The structure we have tried to force upon them and are 
currently trying to force upon them is the most centralized 
system that I have identified in the world. You have Karzai, 
who is elected, and then he appoints the provincial leaders. Is 
that correct, Mr. Feldman? The provincial leaders are not 
elected. What kind of corruption would we have in this country 
if the President of the United States--oh, boy, he's elected, 
thus we have democracy--but he would appoint all the Governors 
and then the Governors would appoint the police chiefs and the 
heads of the education and everything all the way down the line 
would be, when it got to the people level, was associated with 
somebody in the capital city, who all they know has a brother 
who is engaged in the drug trafficking. Do you think we can 
succeed with that type of reality?
    Go ahead, Mr. Feldman. Tell me I am wrong. Give me some 
reason for optimism. I am ready for it.
    Mr. Feldman. Thank you. In terms of looking for a reason 
for optimism, I would first point to the Washington Post op ed 
from last week that says: Afghanistan's Reasons for Optimism, 
by Jim Dobbins and Craig Charney.
    Mr. Rohrabacher. I never get optimistic when I read the 
Washington Post.
    Mr. Feldman. Again, I am not seeking to be Pollyannish in 
this, and we certainly recognize the vast difficulties here. 
But I think if you look back at the testimony by General 
Petraeus, by Secretary Gates, by Chairman Mullen in terms of 
significant military successes recently and how we are using 
that to leverage what we hope, and which we have always said 
that this cannot be resolved just on the battlefield and 
therefore this is the reason why we are seeking to move forward 
with this third----
    Mr. Rohrabacher. Are we asking for any structural changes? 
I was in Bonn when this whole system was created, we threatened 
Zahir Shah, the former king, to accept this and to accept 
Karzai, I might add. He wasn't Zahir Shah's pick. Is there any 
indication that we are willing to accept a change in what we 
forced on these people, this centralized structure? Because 
they are not going to accept it. These village chiefs, these 
village leaders are not going to accept mandates from a central 
government, especially when the guy up there is from a 
different tribe or whatever.
    Mr. Chabot. The gentleman's time has expired. If the 
gentleman would like to answer briefly the question or 
statement or like to make the gentleman optimistic up here.
    Mr. Feldman. In citing some of this polling data released 
last week--and, again, I am not using it as the only framework 
to view this through. I am also dubious about some polling. 
According to these polling numbers, 63 percent of Afghans said 
that they are better off than they were 5 years ago. Fifty-nine 
percent of Afghans think their country is moving in the right 
direction. Karzai's approval ratings were 62 percent. That is 
not a case for optimism, but it is a case of looking at what--I 
don't think you can accurately say we are foisting this upon 
them, by any means. This is the system, the legitimate, 
credible system of government that is in place now, and this is 
what we are working with.
    But I think that per my opening statement the two key 
pieces here are, first of all, the transition announcement and 
the fact that we have now embarked on the real transition, 
including this announcement of seven provinces and districts 
encompassing 25 percent of the country's population, which was 
announced by President Karzai just a week or so ago, and the 
fact that the transition frame as announced in Lisbon, which 
will be completed by the end of 2014, has now started.
    But second of all, trying to bring all the assets that we 
have to bear; not only the continuation of a very robust 
military and civilian surge, but also this diplomatic and 
political surge, which we are seeking to bring this to 
conclusion. But the military and civilian campaigns have to go 
hand in hand, and the Afghan Government, as you rightly note, 
has to build credibility with its own people. And that is what 
our assistance has gone to do, to try to ensure that there are 
alternatives presented to the Afghan people to the insurgency.
    Mr. Chabot. The gentleman's time has expired. The ranking 
member, Mr. Ackerman, had to go to the floor to offer an 
amendment on a bill that is being taken up on the floor so he 
is being now ably represented as the acting ranking member by 
the gentleman from Virginia, Mr. Connolly, who is recognized 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. Welcome to the 
panel.
    I mentioned in my brief opening remarks my concern about 
CERP, the Commanders' Emergency Response Program. Since 2004, 
nearly $2.64 billion has been appropriated for this program. I 
am concerned that there is little transparency and little 
accountability. And the amounts are now quite large.
    Originally, maybe the intention of CERP was to augment the 
ability of a military commander to provide something other than 
guns and uniforms in a village or in a region so that he or she 
could respond quickly without a lot of bureaucracy in fixing a 
bridge or rebuilding a school or whatever it might be. This is 
now a very serious, large aid program. There was, for example, 
a special inspector general report in January that raised the 
question of whether all of programs we have invested in through 
this program might be at risk of waste because, oops, we forgot 
to build in a maintenance component.
    So I would like to hear your view about CERP and whether 
there is sufficient accountability and transparency in what we 
are doing moving forward.
    Mr. Feldman.
    Mr. Feldman. I will defer to my colleague.
    Mr. Sampler. Thank you. I am familiar with CERP actually 
from my time in the military service as well, and it is a 
valuable tool because what we find is that there are times when 
the military is present in advance of USAID's ability to be 
present and do the work. So I appreciate your recognition that 
CERP had a place and has a time.
    The discussion about how we use it now is a valid one. I 
will note that recently, to encourage the interaction between 
USAID and our military colleagues with respect to CERP, there 
is a manual that has been developed, a civilian guide to how 
CERP is being used. It allows and encourages and in fact in 
some cases strongly encourages the USAID development experts 
working at the PRT and even further down at the DST, where 
these military commanders are employing CERP, to engaged on how 
it should be done, how it is integrated into longer-term 
development projects.
    What the nuances of the use of CERP are, the military 
perspective may be shaped by the winds through which they view 
the particular project and the context politically in the 
village. The USAID perspective will be different. One is not 
right and one wrong. What we have to do is learn to integrate 
them. So we are working quite closely at PRT and DST levels on 
coordinating and making sure that CERP is applied appropriately 
and an integration and smoothly harmonized with the development 
work that USAID is doing.
    Mr. Connolly. I would say to you, Mr. Sampler, when you get 
to $1 billion a year, that is real money. And the military are 
not development experts. They are wonderful at all kinds of 
things, but that is not their mission. And that is what they 
are doing right now; they are running a development program 
through CERP. That is not their main expertise. And that is my 
concern; that with the best of intentions, you have to ask 
yourself what could go wrong with amounts that large. And are 
there mechanics in place to account for it in a transparent 
way. That continues to be a concern to me.
    Let me ask you in the time I have left, Mr. Rohrabacher and 
the chairman really raised questions about the success of our 
efforts in Pakistan and Afghanistan. One measure of whether we 
are successful or not I guess is do they like us. Another might 
be more concrete metrics in terms of what got built or repaired 
or invested. I would be interested in hearing what are your 
metrics for success or failure and how do you think we are 
doing? What constitutes success in Pakistan, for example?
    Mr. Feldman. Well, are you asking both Afghanistan and 
Pakistan?
    Mr. Connolly. Yes. I thought I would start with Pakistan. 
But you can pick either.
    Mr. Feldman. If I have less than a minute, I will try to 
put them together, and that is I would go back to the 
President's December review and what he has laid out as the 
touchstone here, which is a region that is free from al-Qaeda; 
a stable, independent Afghanistan rid of insurgency and proxy 
conflicts fought by neighboring states. So it is political 
resolution to the conflict.
    I think you can look at a variety of different metrics, 
depending on what you are seeking for success. As I noted in 
the Pakistan answer, in particular, and at least three or four 
members have now asked about the kind of popularity piece. 
Again, I don't put that much stock in polling numbers. I would 
note that they are not all, again, against us. In polling that 
was through December of last year, so pre the most recent 
situation in Pakistan, we had gradually crept up kind of mid-
teens to over 40 percent in terms of approval ratings by 
Pakistanis of the U.S. And I think that that goes to the fact 
that we were really addressing for the first time in many years 
this trust deficit which we had talked about quite a bit. We 
are seeking to move from a far more transactional relationship 
in Pakistan to a much broader and deeper one. That was 
crystallized by the strategic dialogue process that we have had 
hosted three times by the Secretary at a ministerial level year 
but, most importantly, which had 13 different substantive 
working groups, everything from security to water to energy and 
infrastructure, helping the Pakistani Government meet the needs 
of the Pakistani people, which is in our own national security 
interest as well as that of the Pakistanis.
    So that is how I would look at success in Pakistan.
    Mr. Chabot. Than you. The gentleman's time has expired. The 
gentleman from Illinois, who is the chairman of the Foreign 
Affairs Subcommittee on Asia and the Pacific, Mr. Manzullo, is 
recognized. I should have also indicated Mr. Rohrabacher is the 
chairman of the Oversight and Investigations Subcommittee in 
Foreign Affairs as well.
    Mr. Manzullo, you are recognized for 5 minutes.
    Mr. Manzullo. Thank you, Mr. Chairman. I have a statement 
for Ms. Biswal. I was wondering where I had seen you before. 
Then I remembered you had been part of Mr. Obey's staff.
    Ms. Biswal. Yes, sir, as well as on this committee prior to 
that.
    Mr. Manzullo. That is correct. That is correct. In your 
testimony you stated in the third paragraph, the last sentence: 
``I hope to get a better sense of the committee's priorities in 
the region what USAID can do answer questions and address 
concerns.'' Then, on the second page, the fourth paragraph, you 
say: ``Under the leadership of Dr. Shah, USAID has reformed the 
way we do business. We are broadening our partner base to make 
it easier for small businesses, organizations, to partner with 
us. We are employing strategic use of science and technology 
and seeking out innovations that can have a game-changing 
impact.''
    Are you familiar with the development innovations ventures?
    Ms. Biswal. Yes, sir, I am.
    Mr. Manzullo. Were you here last week when I questioned Dr. 
Shah on the wisdom of that program?
    Ms. Biswal. I was not present, but I do understand the 
nature of your question.
    Mr. Manzullo. Well, this gives $30 million in grants. It 
employs 10 new full-time employees of the State Department. A 
brand new program. It duplicates what other agencies are doing 
in the area of science and technology. It makes foreign 
companies as well as U.S. companies and individuals available 
for $30 million for new innovations, we and are in the process 
of ending that program through various techniques.
    I just find it extraordinarily difficult to believe that 
USAID would begin to expand its role into strategic use of 
science and technology. One in particular is spending money on 
fuel cell research and there is already millions being spent in 
the private sector.
    Can you tell me how you can justify expanding USAID's 
mission at a time when there is hardly enough money to take 
care of the original mission?
    Ms. Biswal. Mr. Chairman, I think it is a fair question. 
Let me explain to you my view of why I think this is an 
important area for us to expand into. USAID has funded a lot of 
very important work in improving health outcomes and in 
improving development outcomes. But we have not had the focus 
on innovation or the partnership with the private sector that I 
think can look at nontraditional ways of finding solutions that 
perhaps are not in our quiver of arrows right now but perhaps 
could have a much greater transformative impact. And so the 
idea here is to seek out what we don't know, what others are 
doing in the private sector, in academia that might have a game 
changing impact and invest in a very small amount initially to 
see if that----
    Mr. Manzullo. I understand. A $30 million--hiring 10 brand 
new bureaucrats is not a small amount. And how would that help 
feed the most needy now?
    Ms. Biswal. For example, one program that we are looking at 
in India is for $173,000 to look at mobile technology as a way 
of improving health care delivery in rural areas in India where 
you can through mobile technology----
    Mr. Manzullo. What is that? What is mobile technology?
    Ms. Biswal. From cell phones and smart phones. Because of 
the high prevalence of mobiles in the area----
    Mr. Manzullo. The problem with that is DIV, you don't check 
what our agencies are doing. You don't check with what NIST is 
doing, what the SBIR program is doing. You are adding arrows to 
your quiver when most agencies are taking arrows out of the 
quiver, to use your metaphor.
    I am just suggesting to you that Americans are not in the 
mood for USAID or any other agency to expand, to increase its 
activities. You have got your hands full feeding the needy. And 
what I would like you to do is to furnish me within 10 days--
and, Chairman, if you could make this in order--I want copies 
of all of the awards that were made, including the one on fuel 
cell technology. I don't want to have to get a subpoena. Can 
you give me your assurance at this hearing that you will 
furnish copies of the awards that were made under this program?
    Ms. Biswal. I will give you my assurance that we will 
comply with that request.
    Mr. Manzullo. That is good enough, and so I will leave you 
alone. Thank you. It is good to see you back.
    Mr. Chabot. Hot and cold. Thank you very much. We 
appreciate that very much. And we will go now to the gentleman 
from Florida if he has any questions, Mr. Bilirakis.
    Mr. Bilirakis. Yes, thank you, Mr. Chairman. I appreciate 
it very much. For the panel I am alarmed by the killings and 
beheadings that took place this past weekend in Afghanistan as 
a result of the Koran burning that happened in my State of 
Florida. Though certainly it was within the pastor's 
constitutional rights to burn the Koran, I don't believe it was 
the right thing to do.
    What is more alarming, however, is that it appears that 
more than just Taliban ties participated in this violent 
protest. The media has reported that students at Kabul 
University have been especially enthusiastic in calling for 
death to America. It makes me wonder if any of the tens of 
billions of dollars we are sending in development aid has 
really done anything to develop Afghanistan either civilly, 
politically, educationally, or economically.
    Are we wasting our time over there? Are we wasting our time 
and money over there? I know the question has been asked 
several times. I would like to have an answer.
    Mr. Feldman. I would just start with the fact that we 
obviously abhor the burning of a holy text, but nothing 
justifies the kind of violence that we saw in Mazar several 
days ago. I would note on the positive side that Afghan 
leaders, including Ulema leaders and President Karzai, are 
urging calm, that the situation seems to be getting calmer and 
more stable. The report that I saw today about protests the 
Kabul University were fairly small, a few hundred students and 
certainly not violent. And so hopefully the arc of this has 
wound down.
    But I would certainly note that I think that the statement 
by the President, his second statement over the weekend, 
addressed this issue most specifically, I think, and eloquently 
when he said the desecration of any holy text, including the 
Koran, is an act of extreme intolerance and bigotry. But to 
attack and kill innocent people in response to that is 
outrageous and an affront to human decency and dignity.
    I don't know if there is anything else my colleagues what 
to add.
    Mr. Sampler. I will just add, and partly also in response 
to a previous question about nation building or state building, 
the investment is not going to prevent college students from 
protesting but it will build the capacity of the government to 
respond to protests and address them in ways that are more 
recognizable and acceptable to the rest of the world.
    The focus in terms of the state assistance that we give to 
the Government of Afghanistan is focused on that. When these 
things happen, as they may, how will the state be able and 
capable to response. In Mazar the response was inadequate. I 
would argue that in Kandahar the response was different, 
inadequate in different ways. What we need to be able to 
measure and to continue to apply resources and metrics to is 
the ability of the state to respond when things like this 
occur.
    Mr. Bilirakis. I have one other question, Mr. Chairman. 
What is the capability for the Afghan state to harness its own 
resources to become as self-sufficient as possible and are 
there proper oversight and accountability requirements 
currently? What international bodies would be responsible for 
oversight and accountability as international forces transition 
and draw down? For the entire panel.
    Mr. Feldman. Obviously the sustainability aspect here is 
one that we have been very, very focused on. Ambassador 
Holbrooke used to say frequently that agriculture was our chief 
nonsecurity priority in Afghanistan. Rebuilding the economic 
infrastructure has been at the core of what we have been 
seeking to do.
    There is obviously much that we are continuing to look at 
to help Afghans find the resources to make it a more 
sustainable state. And USAID can perhaps speak about some of 
the extractive initiatives and others that are currently being 
looked at.
    In terms was oversight this is something that we have tried 
to factor into every aspect of our relationship in both 
Afghanistan and Pakistan, and we have particularly focused 
resources on looking at our own contracting processes, 
subcontracting processes, and having many more civilians in the 
field to help to oversee that has aided that effort quite a 
bit.
    Mr. Sampler. In the waning seconds, there is the now the 
High Office of Oversight that the Government of Afghanistan has 
created and we are working to build their indigenous capability 
with their own High Office of Oversight. In the meantime and in 
addition to that we have an initiative called A3, accountable 
assistance for Afghanistan, and the notion there is that we 
will assess ministries and provide technical assistance as 
required to bring them up to international standards, and we 
will provide continuing oversight. And we have a number of what 
we call host country contracts with specific ministries that 
have been quite successful at delivering the goods and services 
of governance through these mechanisms that were mentioned.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Nebraska, Mr. Fortenberry, is recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman, for calling this 
hearing. I am sorry I am late so I don't have the benefit of 
your earlier perspectives. So if this is a bit redundant, I 
apologize. But let's talk a little bit about what is happening 
across the Arab world and the potential there in terms of the 
Arab spring and a reaching for more democratic ideals as well 
as in South Asia, the ongoing interest in expanding democratic 
capability, capacity.
    If you think about it, the concept of democracy really 
rests upon two pillars. The first is respect for the inherent 
dignity and therefore rights of all persons of a society and 
then, secondly, a responsibility for the rule of law. And in 
that regard, we have some things that are in dire conflict.
    If you look at, for instance, the situation in Pakistan 
where the gentleman, the highest ranking Christian in the 
government, Mr. Shahbaz Bhatti, was assassinated about a month 
ago on the heels of others who had spoken out against the 
blasphemy laws. This is a very, very powerful setback for the 
notion of expanding democratic ideals and democratic capacity.
    Throughout the Middle East as well there is a diaspora 
going on where its Christian populations are fleeing Iraq, they 
are under pressure in Egypt, Syria, Lebanon. And so I would 
like to hear some of your perspectives on how to heighten 
awareness of this as a U.S. Government and how societies who 
are striving to again achieve more democratic ideals have to 
reconcile themselves with the concept that all persons have 
dignity and therefore rights, and particularly if you lose the 
Christian communities throughout the Middle East you are losing 
a true leavening influence that has a rightful place to be 
there alongside other historic communities, a historic right as 
well as a right based upon the natural rights of man. You will 
lose the leavening influence and the buffering capacity that 
those communities have historically had between differing 
factions.
    This is also very important in the Israeli-Palestinian 
question. We like to talk about trying to resolve those 
differences between Jews and Muslims, but there are three legs 
to this stool. It is Jews, Christians, and Muslims. We are 
struggling as a government to figure out how to communicate 
that effectively and to raise it to the level that it needs to 
be raised, both in our bilateral relationships but also in our 
multilateral institutions such as the United Nations.
    So I would like to hear your commentary on that, please.
    Mr. Blake. Mr. Fortenberry, let me start and I will ask Dan 
to chime in. I would like to say that I think there is a very 
broad and encouraging trend in South Asia, which is that for 
the first time now in the history of that region there are 
democratically elected governments in every single South Asian 
country. The most recent entrants to that club were Bhutan, 
which was a monarchy and now has become an elected Parliament, 
and then the Maldives, which had for 30 years an autocrat and 
they had a very good, fair election in 2008. Bangladesh also in 
2008 had its freest and fairest elections ever.
    So the broad trends in South Asia are actually very 
positive, and I would submit that the United States has played 
a very important role through our assistance in helping many of 
those democratic transitions.
    So let me just ask Dan to also chime in on the Afghanistan/
Pakistan part.
    Mr. Feldman. Sure. The assassinations of Governor Tazir and 
Mr. Bhatti were truly tragic. They were obviously very 
committed to tolerance and to education of Pakistan's future 
generations. We felt it very deeply. I went to the memorial 
service held here by the Embassy for Minister Bhatti. He had 
been in to see Secretary Clinton just a few weeks before his 
death.
    It is an issue that our ambassadors, Ambassador Munter and 
Ambassador Eikenberry, raise frequently in terms of their 
ongoing concerns about discrimination.
    Mr. Fortenberry. It is important to note that Shahbaz 
Bhatti, while being the highest ranking Christian in the 
Pakistani Government was also highly interested and effective 
in protecting other minority rights because he was a man 
compelled by this fundamental ideal of justice for all people.
    Mr. Feldman. Yes, absolutely, and it is an issue that we 
raise frequently in our dialogues with the governments and in 
this case in particular with the Pakistani Government and have 
really put it as one centerpiece of those discussions. I know 
that in addition to Secretary Clinton's own meeting with 
Minister Bhatti, our Under Secretary for Global Affairs, our 
Assistant Secretary for Democracy and Human Rights and Labor 
all have been to Pakistan recently and raised this prominently 
in their issues, and it is something that we continue to be 
very, very committed to.
    I would say on the rule of law front this is a cornerstone 
of some of our civilian assistance programs in Afghanistan, and 
Mr. Sampler can speak a little bit in more detail about some of 
those. But this is a hallmark of civil society, and it is in 
many ways why we again tried within our strategic dialogue to 
really enhance and promote the role of civilian government and 
everything that a civilian government can and should stand for 
and its responsiveness and protection for his people.
    Mr. Chabot. The gentleman's time has expired. We will go 
into a second round here. We don't have to necessarily take up 
our full 5 minutes, but if the gentleman would like to do that, 
I will start off myself. I will not take 5 complete minutes.
    The gentleman from Florida, Mr. Bilirakis, brought up 
something I also intended to bring up and that was the incident 
where this knucklehead burns a Koran and then a far in excess 
reaction occurs over in Afghanistan where literally people's 
lives are lost. And I was just wondering first of all with 
respect to the four Nepalese soldiers in particular, who were 
some of the victims here, do we know if--the different 
countries that are over there have different rules of 
engagement. Some are armed, some my understanding is may or may 
not have ammunition and different things. Do we know what the 
Nepalese were operating under at the time?
    Mr. Feldman. For the rules of engagement, I think that 
would be per the UNAMAs mandate but I am not sure.
    Mr. Sampler. I can't speak with authority to the UNAMAs 
mandate now, but when I was chief of staff the guards actually 
had a fairly liberal rule of engagement policy. They would not 
necessarily have to have been or to have allowed themselves to 
have been disarmed.
    Mr. Chabot. Some of the countries themselves have different 
restrictions on their own troops, don't they?
    Mr. Sampler. Mr. Chairman, you may be speaking about the 
troop-contributing nations to ISAF in particular and you are 
certainly right, but that is way beyond my purview.
    Mr. Chabot. I would be interested to find out what they 
were operating under, first of all. And then second of all, do 
we have any insight or any intelligence or any feedback that we 
have gotten as to what the reaction has been in Nepal about 
such a horrific thing happening to their soldiers? Because they 
have been a pretty key part in different exercises around the 
world and have good troops as far as I understand. Have we 
heard anything about that?
    Mr. Blake. Mr. Chairman, I actually called the Nepalese 
Ambassador when I heard about this and expressed my 
condolences. He actually wasn't aware of it at the time, but I 
think, as you say, the Nepalese have soldiers serving around 
the world. They have suffered casualties like this in the past. 
They are known for their bravery and their service, the Gurkhas 
in particular.
    Mr. Chabot. Do we know if they were Gurkhas or not?
    Mr. Blake. I don't know about these particular ones.
    Mr. Chabot. That was the first thing that came to mind.
    Mr. Blake. I don't think this is going to in any way impede 
their continued service in peacekeeping operations around the 
world. This is something that the Nepalese take great pride in. 
I think that will continue. I see no indication that that has 
changed.
    Mr. Chabot. If we could have some follow-up on the 
questions that I raised. And then secondly, relative to India, 
one of the things that I find particularly annoying as a Member 
of Congress and a representative of the taxpayers who send 
dollars to India--and let me preface by saying that I consider 
India to be an important ally to the United States and 
important trading partner and even more so in the years to come 
hopefully--is that in the U.N. they have a history of not being 
particularly in sync with where the United States is.
    I asked to have the most recent year available, which I 
think is 2009, the numbers how they were with the U.S., and I 
was informed that they were not particularly big, overall 
voting. They were with us 30 percent of the time, not counting 
a consensus vote. And on important votes they were with us 11 
percent of the time. And one would hope that a strategic ally, 
a friend of the United States, would be with us a bit more than 
11 percent.
    Mr. Ambassador, did you want to comment on that? I met with 
the Ambassador from India on the same topic and expressed my 
concern about that. What would you have to say?
    Mr. Blake. Mr. Chairman, this is something that we have had 
a long dialogue with our friends in India about. I would say 
that things are changing. India is now on a 2-year rotation, 
just started in January and will be on for the next 2 years. We 
have made it a point on very important votes to talk to them. 
And I would point to things like some of the recent IAEA votes 
over the last several years on Iran where India has similar 
interests to ours in terms of ensuring that there is not going 
to be another nuclear weapons state in the region and they have 
taken some very important votes with the United States and with 
the majority on the IAEA.
    Mr. Chabot. Not to interrupt, but what you said is when it 
is in their interest. So when our interests align, they are 
with us. Thanks a lot.
    Mr. Blake. But I would say even on some of these things 
like human rights, where traditionally the Indians have not 
been willing to support country-specific resolutions, I think 
there has been an evolution and will continue to be an 
evolution. One of the most important trends in India over the 
last 10 years is they want to be a responsible global power. 
They want to help to manage the international system. So I 
think that we are going to see an evolution in their voting 
patterns, and I think we have already seen some evolution in 
their voting patterns and I expect that to continue.
    Mr. Chabot. I appreciate it, but again 11 percent is not 
very good on the important votes. And I would hope that they 
would be in line naturally more often and not only if it is 
just in their best interests.
    Thank you very much, and my time has just expired. Gerry, 
we are going into a second round if you wanted to ask any 
questions.
    Mr. Connolly. Thank you, Mr. Chairman. I wanted to ask you 
about the issue of corruption. Some economists have argued in 
the past that corruption can be an economic efficiency in being 
able to sort of hot wire around normal bureaucracy and get 
things done. But all of the stories one hears about the levels 
of corruption in this region, from Afghanistan to India, is 
that we have crossed a very different threshold and we are 
talking about huge impediments actually to economic development 
and the ability for some kind of regular business code and 
protocol.
    I am wondering what your views are and how do we reconcile 
our foreign assistance and economic assistance programs in 
light of the obvious fact that massive corruption is occurring 
in some of these governments? What protections do we take for 
U.S. tax dollars?
    Mr. Blake. We all have answers to that, but let me start on 
that with respect to India because I think it is important. 
First of all, as you rightly point out, Mr. Connolly, 
corruption is a huge issue right now in virtually every one of 
these states. In India the corruption issue has brought 
Parliament to a standstill for the last 6 months because they 
have been focused on particularly telecoms corruption. And I 
think it has also had a deterrent effect on investment, and 
most Indians would say that as well. So there are real costs to 
the problem of corruption.
    But I also think that the government is committed to trying 
to deal with this. They have obviously a very open civil 
society and independent judiciary, a very free Parliament, all 
of whom are looking to address this.
    The other thing that India has, which is really important 
is a right-to-information law, that they passed in 2005 where 
any Indian citizen can apply to find out how his or her tax 
money is being spent at any level of the government, and they 
have done so, so much so in fact people who have exercised this 
right have been threatened because they have been effective in 
asserting their rights.
    So this is something where the United States has now 
started an open government initiative with India to try to 
promote open government, not just in India but in other parts 
of the world. And I think it is another sign of how, again, 
India wants to take a greater responsibility in the world and 
wants to promote some of the values that we both cherish.
    So I think they certainly have problems, but they have 
their own institutions to deal with those problems and, most 
importantly, they are now ready to work with us to try to 
promote open government elsewhere in the world through things 
like rights to information.
    Let me ask my colleagues in they want to----
    Ms. Biswal. Thank you very much. I wanted to add to that, 
maybe answer your question in three ways. One, what we are 
doing to protect taxpayer resources; two, what we are doing to 
build capacity in these countries to tackle corruption; and, 
three, where we are working with governments what steps we take 
to ensure that those resources are safeguarded.
    And the vast majority of U.S. assistance does not go 
through government-to-government mechanisms but goes through 
nongovernmental organizations, and we take great care in 
ensuring proper oversight of that assistance, including through 
monitoring, through periodic audits. Whenever we do find an 
instance of wrongdoing, we try to take steps immediately to 
correct and curtail when any problems have occurred.
    We do work on economic governance in a lot of countries 
specifically to address this issue of corruption to improve the 
rule of law, to enhance that country and society's ability to 
tackle corruption. And we are looking increasingly at what can 
we do to be building these host country systems, the 
procurement systems in governments, the budgetary systems in 
governments. Most governments don't have the standards and meet 
the standards that we have for USAID in terms of entrusting 
funds into those governments. And so we conduct assessment of 
that government, independent audits of that government's 
financial system, where there might be weaknesses, and then 
recommend the steps that need to be put in place to strengthen 
that system before we put any resources through government 
mechanisms.
    So it is an issue throughout the region. It is an issue 
that we are tackling both individually and in partnership with 
the countries in which we work.
    Mr. Feldman. I will say just very quickly, obviously 
corruption is an enormous problem in Afghanistan; in 
particular, fighting fraud and waste is certainly one of our 
highest priorities. One of the major aspects of our civilian 
surge, tripling the number of civilians that we have in the 
field over the course of the last 2 years, has been expanding 
the presence in the field, allowing experts to get out and have 
more hands on oversight over development projects. And we have 
also had a very active collaboration with our military in terms 
of putting stronger controls on our contractors.
    So within our Embassy, one of the resident ambassadors has 
been overseeing this with the military in terms of the various 
task forces, 2010, Shafafiyat and others, that look at the 
transparency and contracting process.
    And lastly, as Mr. Sampler can say a little bit more about 
if he has time, on our government-to-government assistance in 
both Afghanistan and Pakistan, this is an area that we have 
particularly scrutinized in terms of pre-certification 
requirements, the vetting processes, and how we ensure that any 
money that goes government-to-government has a variety of 
mechanisms of oversight governing it.
    Mr. Connolly. Thank you. My time is up, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from California, the Foreign Affairs Committee 
chairman on the Oversight and Investigations Subcommittee, Mr. 
Rohrabacher is recognized for 5 minutes.
    Mr. Rohrabacher. I don't want to sound too pessimistic 
here, but I kind of get the idea that you folks are very 
optimistic about an area that I don't think we should be very 
optimistic about. Quite frankly, the one shining light in 
American foreign policy and perhaps in progress, diplomatic 
progress, that we have to show is India, and quite frankly, I 
think that reflects an evolution that has taken place in 
American policy since the end of the Cold War and also an 
evolution in India that also has taken place since the end of 
the Cold War. After the end of that stupid conflict that we 
were in for 4 to 5 decades, we now are hopefully readjusting to 
what would be the natural friendships in different countries, 
in Asia in particular.
    I don't think that we have--the evolution in Russia should 
have been a lot further along, I believe, but we can talk about 
that in some other hearing. But even that, if you compare what 
we were 30 years ago with Russia, we were at each other's 
throats and now at least we can work together, and I would hope 
that 10 years from now we could have evolved into a real solid 
friendship with the Russian people.
    Well, that is the same with India. India during the Cold 
War was allied with the Russians. I don't believe necessarily 
that our policy toward India was what has caused this. This is 
a natural thing, and I would hope that we have the intelligence 
to work and to make sure that India is our best friend in that 
part of the world because they are demonstrating a commitment 
to democracy.
    Pakistan, which is a hangover again from the Cold War, why 
were we so close to Pakistan? In order to balance off the 
Soviet Union. Pakistan isn't committed to democracy. I am 
sorry, Pakistan is committed--the people who run that society 
are committed to Islamic government. And the people who get in 
their way are being murdered. And it is an unfortunate thing 
there. And to the point that we have been able to take a look 
at what is going on in Pakistan, our aid programs and all of 
these things we are trying to do for Afghanistan and Pakistan, 
we haven't as much stabilized Afghanistan as we have 
destabilized Pakistan. And if they want to have their country 
and they want it to be a radical Muslim country, let them do 
it. And the fact is that Pakistan is committed to Islam. And 
they are dedicated people. They have every right to be 
dedicated to it.
    I think India is dedicated to prosperity for their people. 
And that certainly leaves a lot more openness toward how who we 
can work with and who we can't in the future. And so I guess 
my--let's get back to government structure and to what we can 
do.
    Should we have an India-based foreign policy in Asia and 
South Asia or should we be hanging on to this old tie with 
Pakistan that was established during the Cold War?
    Mr. Blake. Mr. Rohrabacher, let me just start and just talk 
about our relationship with India, which is, as you know, the 
President made a very important trip to Asia last year because 
we really see Asia as fundamental to or security and economic 
goals.
    Mr. Rohrabacher. Mr. Chairman, I have one question that I 
would like to ask that is yes or no, because I am going to miss 
out on my time here.
    Is the Pakistan Government still providing--is it still the 
major source of supplies and weapons for the Taliban and the 
radical elements that the American troops are fighting in 
Afghanistan? If not, where are those supplies coming from?
    Mr. Feldman. That is a much longer than a yes-or-no 
question. But no, the Pakistan Government is not providing it. 
We have a very good and growing and strong relationship with 
the civilian and the military government.
    Mr. Rohrabacher. You include the ISI as within the Pakistan 
government or are you putting that as a separate entity?
    Mr. Feldman. Writ large, we have tried to improve, and very 
successfully, our strategic relationship with all elements of 
the Pakistani Government. And as I noted from the very outset 
from my opening testimony, a difficult partnership with 
Pakistan is far better than having a hostile Pakistan. This is 
a country that is vital to our national security interests. We 
have to do this. We cannot make----
    Mr. Rohrabacher. I have been hearing that for 50 years, and 
I will tell you, a realistic relationship, rather than basing a 
relationship on wishful thinking, is what will bring about 
peace in that part of the world. And what we have had is 
wishful thinking and what I call irrational optimism.
    There are ways of getting tough without getting belligerent 
with weapons, but we need to get tough and make sure that we 
are not looked at as patsies, and those people in Pakistan now 
look a lot us, as do several other groups of people, like we 
are patsies. They respect strength and they respect courage 
enough to stand up for one's own interest as we should respect 
their rights.
    So anyway, I am sorry I have used up our time on this.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Nebraska, Mr. Fortenberry, is recognized.
    Mr. Fortenberry. I want to return to my previous line of 
thoughts and questioning. When we engage other countries we 
tend to do so with concepts that are measurable--security 
capacity, economic capacity, civil service capacities--in order 
to create stabilization and then potential opportunities. But 
if you have got an eroding philosophical underpinning that 
doesn't protect certain segments of society, how can the 
advances that we can do measure actually hold over time? The 
question becomes then--and this is not the United States' 
responsibility alone. It is an international community 
responsibility--how do you continue to heighten and elevate the 
need, the urgency to protect vulnerable minority communities, 
particularly in areas that are proclaiming a desire for the 
pursuit of democratic ideals?
    Mr. Feldman, you appropriately went to the Embassy and 
expressed condolences for Shahbaz Bhatti's death, and that is a 
respectable thing to do and we will do things like that on a 
case-by-case basis as the horror of this kind of persecution 
presents itself in a most dramatic fashion.
    But what about other ways is which we can collectively 
unify ourselves along with other countries and elevate these 
concepts of the principles of justice, the principles of 
democracy? And this has implications for places like Iran, 
where are the people of Iran, a certain segment anyway, are 
desiring a more just and moderate form of governance. If we 
focus intensely on these types of questions, I think it leads 
to outcomes that help in the long term develop real capacities 
and real vibrant democracies rather than just to focus on 
things that can collapse fairly rapidly.
    I would like your thoughts on that. Not rather than; in 
addition to. Let me put it that way. In addition to focusing on 
that which we can measure.
    Mr. Feldman. I believe Secretary Clinton when she testified 
perhaps to this committee also noted that this was not just an 
attack on a single man but on the values and tolerance and 
respect for people of all faiths and backgrounds. And she noted 
that had been championed, I would say in particular, as a 
rebuttal to Congressman Rohrabacher, that had been championed 
by Muhammad Ali Jenna, the founder of Pakistan. And this is 
very important. This is a civilian government that we strongly 
support. We work with them on a range of initiatives. And 
certainly a respect for tolerance and a broad-based growth of 
civil society is one of the core precepts that we engage with 
them on across the board. And this is a part of all of our 
conversations at every level, from the working level to the 
most senior level, when we do have discussions like these.
    On the civil society piece or----
    Ms. Biswal. Well, I would like to just maybe--because I 
think you ask a very thoughtful question that goes broader than 
this specific incident and it really does go to the core of our 
values on human rights, on human dignity and elevating those 
values.
    Mr. Fortenberry. The incident is generalizable to the 
principle. It is a shocking incident that forces us to perhaps 
rethink some approaches here.
    Ms. Biswal. Absolutely, and it is not an easy answer, and 
it is not a yes-or-no or a 5-minutes. But it goes to the core 
of what we as a government stand for and the work that we do in 
trying to build democratic societies and strengthen civil 
society organizations in countries, because we know that these 
countries when they are true democracies and deep democracies 
and when they have strong and vibrant civil societies that 
there is a greater recognition of that value of human dignity, 
and when there is a transgression against that human dignity 
that there is greater accountability for it.
    And so it is not an easy answer, but I think it is 
fundamental to why we are doing what we are doing around the 
world.
    Mr. Blake. If I could just add that American diplomats 
around the world make it their business to promote religious 
freedom and the protection of religious minorities. I can tell 
you even in a democracy like India there are problems at the 
state level at places like Karnataka and Orissa and our consuls 
general and our ambassadors are quick to respond to those and 
make public statements and express our concerns and hopefully 
take steps to work with those governments to address the 
underlying problems.
    And that is true--I can tell you for Central Asia, I am 
also responsible for Central Asia, I spend a lot of my time 
talking about religious freedom. It is an important part of the 
overall human rights equation and a really important part of 
developing responsive and responsible government that Secretary 
Clinton has talked over and over about. We spend a lot of our 
time, and I want to reassure you about that, this is a very 
high priority for all of us.
    Mr. Chabot. The gentleman's time has expired. I would like 
to thank all the witnesses for their testimony here this 
afternoon. I would like to remind members that they will have 5 
legislative days in which to revise and extend their remarks 
and to include statements for the record.
    If there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
                                     

                                     





















                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record Notice 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Minutes 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Connolly statement 
                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
